                                                                             AUDIT 





               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OF THE INTERIOR




U .S. FISH AND WILDLIFE SERVICE WILDLIFE AND
SPORT FISH RESTORATION PROGRAM GRANTS
Awarded to t he State of Maryland, Department of Natural Resources,
From july I, 2008, Through june 30, 20 I0




Report No.: R-GR-FWS-0007-20 I I                                      November 20 I I
                                                                                         November 30, 2011


                                           AUDIT REPORT

Memorandum

To:       Director
          U.S. Fish and Wildlife Service

From:     Suzanna I. Park
          Director of External Audits

Subject: Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
         Grants Awarded to the State of Maryland, Department of Natural Resources, From
         July 1, 2008, Through June 30, 2010 (No. R-GR-FWS-0007-2011)

        This report presents the results of our audit of costs claimed by the State of Maryland (the
State), Department of Natural Resources (the Department), under grants awarded by the U.S.
Fish and Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and
Sport Fish Restoration Program (the Program). The audit included claims totaling approximately
$25.4 million on 41 grants that were open during State fiscal years (SFYs) ended June 30, 2009
and June 30, 2010 (see Appendix 1). The audit also covered the Department’s compliance with
applicable laws, regulations, and FWS guidelines, including those related to the collection and
use of hunting and fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned costs totaling $941,106, however, and determined that
the Department (1) did not ensure the State’s legislation assenting to the Wildlife and Sport Fish
Restoration Acts met Federal requirements, (2) potentially diverted $1,122,501 in hunting and
fishing license revenues to unallowable activities, (3) did not report $61,379 in program income
or ensure it was spent appropriately, (4) incorrectly calculated and reported indirect costs, (5) did
not adequately track equipment purchased with Program funds and license revenues, (6) did not
accurately or consistently calculate payroll amounts charged to the Program grants, and (7) did
not reconcile its inventory of Program lands with FWS’ records.

        We provided a draft report to FWS for a response. We summarized the Department and
FWS Region 5 responses, as well as our comments on the responses after the recommendations.
We list the status of the recommendations in Appendix 3.




                           Office of Audits, Inspections, and Evaluations | Reston, VA
        Please respond in writing to the findings and recommendations included in this report by
February 28, 2012. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation. Please address
your response to:

                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191

       If you have any questions regarding this report, please contact the audit team leader,
Mr. Crist Chensvold, Evaluator, or me at 703–487–5345.

cc:     Regional Director, Region 5, U.S. Fish and Wildlife Service




                          Office of Audits, Inspections, and Evaluations | Reston, VA
Table of Contents
Introduction ............................................................................................................. 1
	
                                                                                                                            
	
   Background.......................................................................................................... 1
	
                                                                                                                         
	
   Objectives ............................................................................................................ 1
	
                                                                                                                            
	
   Scope ................................................................................................................... 1
	
	
   Methodology........................................................................................................ 1
	
	
   Prior Audit Coverage........................................................................................... 2
	
	
Results of Audit ...................................................................................................... 4
	
	
   Audit Summary.................................................................................................... 4
	
	
   Findings and Recommendations.......................................................................... 5
	
	
Appendix 1............................................................................................................ 37
	
	
Appendix 2............................................................................................................ 39
	
	
Appendix 3............................................................................................................ 40
	
	
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (the Acts) 1 established the Wildlife and Sport Fish
Restoration Program. Under the Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife resources.
The Acts and Federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs
incurred under the grants. The Acts also require that hunting and fishing license
revenues be used only for the administration of the State’s fish and game agency.
Finally, Federal regulations and FWS guidance require States to account for any
income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

       •		 Claimed the costs incurred under the Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and the grant
           agreements.
       •		 Used State hunting and fishing license revenues solely for fish and 

           wildlife program activities. 

       •		 Reported and used program income in accordance with Federal
	
	
           regulations. 


Scope
Audit work included claims totaling approximately $25.4 million on the 41 grants
that were open during SFYs ended June 30, 2009 and June 30, 2010 (see
Appendix 1). We report only on those conditions that existed during this audit
period. We performed our audit at Department headquarters in Annapolis, MD,
and visited two service centers, a field office, a work center, seven wildlife
management areas, two hatcheries, three boating facilities, two Natural Resources
Police offices, a State park, a laboratory, a demonstration forest, and a natural
resources management area (see Appendix 2). We performed this audit to
supplement, not replace, the audits required by the Single Audit Act Amendments
of 1996 and by Office of Management and Budget Circular A-133.

Methodology
We conducted our performance audit in accordance with the “Government
Auditing Standards” issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                                                    1
conclusions based on our audit objectives. We tested records and conducted
auditing procedures as necessary under the circumstances. We believe that the
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our tests and procedures included:

   •		 Examining the evidence that supports selected expenditures charged to the
       grants by the Department.
   •		 Reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income.
   •		 Interviewing Department employees to ensure that personnel costs
	
	
       charged to the grants were supportable.
	
	
   •		 Conducting site visits to inspect equipment and other property.
   •		 Determining whether the Department used hunting and fishing license
       revenues solely for the administration of fish and wildlife program
       activities.
   •		 Determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on
the results of initial assessments, we assigned a level of risk to these systems and
selected a judgmental sample of transactions recorded in these systems for testing.
We did not project the results of the tests to the total population of recorded
transactions or evaluate the economy, efficiency, or effectiveness of the
Department’s operations.

Prior Audit Coverage
On February 8, 2007, we issued “Audit Report on the U.S. Fish and Wildlife
Service, Federal Assistance Division, Grants Awarded to the State of Maryland,
Department of Natural Resources, From July 1, 2003, Through June 30, 2005”
(No. R-GR-FWS-0025-2005). We followed up on all 12 recommendations in the
report and found that the U.S. Department of the Interior, Office of the Assistant
Secretary for Policy, Management, and Budget considers 7 recommendations as
resolved and implemented and 5 recommendations as resolved but not yet
implemented. As discussed in the Findings and Recommendations section of this
report, we are repeating four of the unimplemented recommendations, which deal
with inadequate controls over real property and equipment.

We reviewed Maryland’s Comprehensive Annual Financial Reports and Single
Audit Reports for SFYs 2009 and 2010. None of these reports contained any
findings that would directly impact the Program grants.

We also reviewed an audit of the Department, issued on April 1, 2011, that was
conducted by the Maryland General Assembly’s Office of Legislative Audits. The

                                                                                  2
report covered the period from May 1, 2007, through March 17, 2010, and
contained two findings in areas related to our review of the Department’s Program
grants. Specifically, the report stated that the Department did not follow the
State’s inventory procedures or maintain adequate controls over equipment.
Furthermore, it noted that a former Department employee executed more than
$71,000 in potentially fraudulent transactions using a corporate purchasing card.
According to the report, supervisory review over those purchases was “deficient”
and not in accordance with State policy. We found similar issues with equipment
controls and corporate purchasing cards, which are discussed in the Findings and
Recommendations section of this report.




                                                                               3
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified several conditions, however, that resulted in the findings
listed below, including questioned costs totaling $941,106. We discuss the
findings in more detail in the Findings and Recommendations section.

Questioned Costs. We questioned costs totaling $941,106 because the
Department (1) did not ensure that an appropriate official reviewed and approved
all journal voucher transactions affecting Program grant funds, (2) did not
maintain adequate documentation to support in-kind contributions on two
Program grants, (3) did not adequately support all payroll costs claimed under the
Program grants, (4) claimed unsupported and out-of-period costs incurred by
subgrantees with Program funds, and (5) could not provide documentation to fully
support corporate purchasing card transactions claimed under four Program
grants.

Inadequate Assent Legislation. Legislation establishing two of the State’s funds
for hunting and fishing license revenues did not prohibit the diversion of revenues
for purposes other than the administration of fish and wildlife.

Potential Diversions of License Revenues. The Department potentially diverted
$1,122,501 of its hunting and fishing license revenues because officials
(1) allocated an inappropriate amount of license revenues to the Department’s
Office of the Secretary, (2) donated license revenues for an unallowable purpose,
(3) did not document how the Maryland Park Service spent license revenues,
(4) lost physical and administrative control over firearms potentially purchased
with license revenues, and (5) could not determine if the State has ever disposed
of real property purchased with license revenues and used the resulting proceeds
appropriately.

Unreported Program Income. The Department earned $61,379 under two
Program grants but did not report the income to FWS or ensure that it was used
exclusively to meet the grants’ objectives.

Noncompliance with Indirect Cost Requirements. The Department (1) did not
ensure it limited the costs of State-provided central services to 3 percent of the
State’s annual apportionment of Program funds, (2) charged indirect costs to three
grants using an incorrect rate, (3) did not report indirect costs claimed on three
grants, and (4) overstated the amount of indirect costs charged to FWS in a
Federal Financial Report.



                                                                                     4
Inadequately Tracked and Missing Equipment. Several items purchased with
Program funds and license revenues were either missing or not tagged, and the
Department’s official inventory listing was inaccurate and incomplete.

Inaccurate and Inconsistent Payroll Calculations. The Department’s Federal
Timecard System did not accurately or consistently calculate payroll expenses for
employees who charged time to the Program grants.

Unreconciled Real Property Records. The Department’s inventory of lands
purchased with Program grants and FWS’ records showed significant differences
because they have not been reconciled.

Findings and Recommendations
A. Questioned Costs — $941,106

1. Unsupported Journal Voucher Transactions — $635,473

The Department regularly uses journal vouchers to split charges among various
accounting codes, to correct errors, to charge its units for work performed by
other State agencies, and for other miscellaneous purposes. Department officials,
however, stated that they generally did not obtain and document managerial
approval on journal voucher forms, as required by State policy, until June 2011,
when the Department issued its own policies and procedures for processing
journal vouchers.

According to the Code of Federal Regulations (CFR), in 43 CFR § 12.60(a),
States are required to account for Federal grants in accordance with the laws and
procedures governing their own funds. According to Section 5 of the “Accounting
Procedures Manual,” issued by the State Comptroller, agencies are responsible for
establishing basic internal control procedures that (1) require a segregation of
duties between the preparation and approval of journal voucher entries and
(2) ensure that journal entries are clearly referenced to indicate their source and
reviewed and approved by a responsible official.

Due to the systemic nature of this problem, we are questioning all journal voucher
transactions that affected the Program grants and involved transfers between:

   •   The Department’s accounting codes and codes of other State agencies.
   •   The Department’s revenue and expenditure codes.
   •   Two or more of the Department’s expenditure codes.

As shown in the table below, we consider approximately $1.2 million in journal
voucher transactions as unsupported, resulting in a Federal share of $721,463 in
questioned costs. Because we are questioning $85,990 of these costs for


                                                                                    5
additional reasons in Findings A.3 and A.4 below, we removed them from our
total here and are questioning a Federal share of $635,473.

                                           Federal   Less: Costs
                             Federal                                   Revised
             Unsupporte                    Share of  Questioned
   Grant                      Share                                   Questioned
              d Costs                    Unsupported in Findings
                            Percentage                                  Costs
                                            Costs    A.3 and A.4
 F-47-E-19      $133,164        58%         $77,235     $7,717           $69,518
 F-47-E-20        326,391       59%         192,571     40,438           152,133
 F-47-E-21        508,834       64%         325,654     37,835           287,819
 F-48-R-19          1,036       75%             777                          777
 F-53-D-15          1,336       46%             615                          615
 F-53-D-16         82,503       75%          61,877                       61,877
 F-53-D-17          5,348       75%           4,011                        4,011
 F-57-R-9           4,148       41%           1,701                        1,701
 F-57-R-10          4,581       44%           2,016                        2,016
 F-57-R-11          1,323       44%             582                          582
 F-61-R-4           7,555       40%           3,022                        3,022
 F-61-R-5           7,919       40%           3,168                        3,168
 F-61-R-6           5,077       49%           2,488                        2,488
 F-63-R-1             544       50%             272                          272
 W-61-R-20         53,277       75%          39,958                       39,958
 W-62-D-20          3,609       73%           2,635                        2,635
 W-65-S-20          1,049       75%             787                          787
 W-65-S-21          2,909       72%           2,094                        2,094
 Total        $1,150,603                  $721,463    $85,990          $635,473


Recommendations

We recommend that FWS:

    1. Resolve the $635,473 in unsupported questioned costs.

    2. Ensure the Department fully implements its policies and procedures for
       processing journal vouchers.


Department Response
Department officials stated that the transactions in question were generally
warranted but were questioned due to a procedural issue. They agreed to review
the journal vouchers for propriety by June 30, 2012, and will work with FWS to
resolve the questioned costs. They also stated that the Department will continue to
follow its administrative procedure regarding the processing of journal vouchers.

FWS Response
FWS regional officials concurred with the finding and recommendations and
stated that they will work with the Department to develop and implement a
corrective action plan.


                                                                                   6
OIG Comments
Because the scope of our audit ended on June 30, 2010, we did not test any
journal voucher transactions processed after the Department issued its policies
and procedures in June 2011. Therefore, the Department needs to demonstrate to
FWS that it has fully implemented those controls. Furthermore, although the
Department suggests that the transactions in question were “generally warranted,”
we have no assurance that the $635,473 in journal voucher transactions represents
eligible grant costs due to the lack of supervisory review and approval.

Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •		 The specific action(s) taken or planned to address Recommendation A.1.2.
   •		 Targeted completion date for Recommendation A.1.2.
   •		 Titles of officials responsible for implementing the actions taken or
	
	
       planned.
	
                
	
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

2.		 Unsupported In-Kind Contributions — $211,274

Under the Program, States must use “State matching” (non-Federal) funds to
cover at least 25 percent of costs incurred in performing projects under the grants.
Noncash (“in-kind”) contributions may be used to meet States’ matching share of
costs, and as with costs claimed for reimbursement, States must support the value
of these contributions.

We reviewed approximately one-quarter of all timesheets used to document
volunteer labor donated under Grants W-65-S-20 and W-65-S-21 for hunter
education. The Department’s Natural Resources Police (the NRP), which
administered the hunter education grants, calculated these in-kind contributions
by multiplying labor rates by the hours donated. We found, however, that none of
the volunteer contributions were adequately supported. Specifically, the NRP:

   •		 Claimed unreasonable amounts of time donated, including 68 hours
       attributed to a single volunteer who taught a class lasting only 15 hours.
   •		 Allowed one person to complete timesheets for all volunteers assisting
       with a class rather than ensuring everyone recorded and certified their own
       time.
   •		 Allowed lead volunteer instructors to approve their own timesheets.
   •		 Calculated the value of volunteer hours using Department labor rates that
       were not in effect at the time the hours were donated.
   •		 Claimed hours contributed in May and June 2008 under Grant W-65-S-20,
       even though that grant began in July 2008, and claimed hours contributed
       in June 2009 under Grant W-65-S-21, even though that grant began in July
       2009.

                                                                                   7
The CFR provides the general documentation requirements for in-kind
contributions. Under 2 CFR § 225, Appendix A , subsection C, which outlines
basic guidelines on cost principles, costs must be necessruy, reasonable, and
adequately documented to be allowable under Federal awru·ds. Furthermore,
43 CFR § 12.64(b)(6) states that in-kind contributions consisting of volunteer
services will, to the extent possible, be supported by the same methods that the
organization uses to suppo1t the allocability of regular personnel costs. Finally,
according to 43 CFR § 12.64(a), matching requirements may be met by the value
of third party in-kind contributions applicable to the conesponding grant period.

This issue arose because:

   • 	 The Department did not have policies and procedures to limit the number
       of hours claimed by volunteers during a single course or to review
       timesheets for accuracy, completeness, and compliance with Federal
       regulations.
   • 	 NRP staff did not accumulate and repo1t data on volunteer contributions
       based on the effective dates of Grants W-65-S-20 and W-65-S-21.
   • 	 Staff in the Depa1tment's Finance and Administrative Service (FAS)
       claimed Federal reimbursement without ensuring that the in-kind
       contributions were provided during the appropriate grant periods.

Because we tested one-quruter of the in-kind contributions claimed under the
hunter education grants and found systemic problems with all of those timesheets,
we have no assurance that any of the in-kind contributions on Grants W-65-S-20
or W-65-S-21 is suppo1ted. Therefore, we ru·e questioning the Federal share of
$86,650 under Grant W-65-S-20 and $124,624 under Grru1t W-65-S-21, for a total
of $211 ,274, as shown in the table below.



                                         w   65   s 20   w   65   s 21
 Total Grant Outlays                         $679, 127       $804,763

 Less: Unsupported In-Kind                    332,526         359,676

 Total Supported Grant Outlays                346,601        $445,087
 Federal Share Percentage                          75%            72%
 Supported Federal Share                      259,951         320,463

 Original Federal Share Claimed              $346,601        $445,087
 Less: Supported Federal Share                259,951         320,463




                                                                                     8
 Recommendations

 We recommend that FWS:

    1. Resolve the unsupported questioned costs totaling $211,274.

    2. Ensure the Department develops and implements policies and
       procedures to limit the number of hours volunteers can reasonably
       contribute in a single day and to review volunteers’ timesheets for
       accuracy, completeness, and compliance with Federal regulations.

    3. Ensure the Department develops and implements policies and
       procedures to (1) accumulate, calculate, and report the value of in-kind
       contributions related to the corresponding grant periods and (2) verify
       this information prior to requesting Federal reimbursement.


Department Response
Department officials stated that by June 30, 2012, they will (1) determine why an
instructor claimed 68 hours of volunteer time for a 15 hour class, (2) interview
volunteers and audit their timesheets to determine the validity of the hours
donated, (3) recalculate the grant billings using the appropriate hourly rates,
(4) adjust the grant billings to include only hours donated in the grant periods, and
(5) implement the policies and procedures recommended in this finding.

FWS Response
FWS regional officials concurred with the finding and recommendations and
stated that they will work with the Department to develop and implement a
corrective action plan.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •		 Titles of officials responsible for implementing the actions taken or
       planned.
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

3.		 Unsupported Payroll Expenses — $79,656

The Department requires employees working on projects under its Program grants
to submit a “Federal time card,” which is used to track the number of hours
worked on Program activities and to charge the grants. We noted several
instances, however, where the Department requested Federal reimbursement for
payroll expenses that were not fully supported.

                                                                                   9
For example, the State’s matching share under Grant F-55-D-9, for boating access
project coordination, was comprised entirely of payroll expenses of one employee
from the Department’s Boating Services unit. Because that individual charged
time to State projects as well, she completed a Federal time card to record the
hours attributable to the matching share of Grant F-55-D-9. We determined,
however, that the employee’s time cards (1) were not reviewed and approved by
her supervisor, (2) did not indicate the specific project and project code to which
the hours were billable, and (3) did not account for all hours she worked during
the pay period.

Furthermore, officials of the Department’s Chesapeake and Coastal Watershed
Services (Watershed Services) applied predetermined percentages to the gross
salaries of two employees. They charged the resulting amounts to Grants F-47-E-
19, F-47-E-20, and F-47-E-21, for aquatic resource education. The officials
instead should have charged the actual hours the employees worked. In another
instance involving Watershed Services staff, we found that a time card used to
charge Grant F-47-E-21 was signed with the correct employee’s name; however,
that employee informed us that the signature was not hers.

Several criteria pertain to these issues:

    •		 According to 2 CFR § 225, Appendix B, subsection 8.h(1), charges to
        Federal awards for salaries and wages must be based on payrolls
        documented in accordance with generally accepted practices of the
        governmental unit and approved by a responsible official of that unit.
    •		 Furthermore, 2 CFR § 225, Appendix B, subsections 8.h(4) and (5), state
        that where employees work on multiple activities or cost objectives, a
        distribution of their salaries or wages will be supported by personnel
        activity reports that must (1) reflect an after-the-fact distribution of the
        actual activity of each employee; (2) account for the total activity for
        which each employee is compensated; and (3) be signed by the employee.
    •		 According to 2 CFR § 225, Appendix B, subsection 8.h(7), salaries and
        wages of employees used in meeting cost sharing or matching
        requirements of Federal awards must be supported in the same manner as
        those claimed as allowable costs under Federal awards.
    •		 Under 2 CFR § 225, Appendix B, subsection 8.h(5)(e), budget estimates
        or other distribution percentages determined before the services are
        performed do not qualify as support for charges to Federal awards.
    •		 The Department’s “Instructions for Completing Federal Time Cards”
        states that for each project on which employees work during the pay
        period, they should enter the project name and codes representing the
        appropriate program, project, and subproject. Employees are also required
        to sign their time cards and obtain their supervisor’s signature.




                                                                                  10
These problems arose due to two primary reasons. First, with regard to Grant
F-55-D-9, the Department did not ensure a separation of duties over payroll
charges. Specifically, the Boating Services employee calculated the value of the
hours reported on her time card and provided that amount to FAS in an email.
FAS staff then requested Federal reimbursement without verifying the payroll
calculations or reviewing the relevant time cards. Second, with regard to all the
Program grants discussed above, employees were not fully aware of the Federal
regulations and Department policies relating to payroll charges to Federal grants.

Because none of the State match for Grant F-55-D-9 was supported with time
cards that satisfied Federal regulations and Department policies, we are
questioning $4,618 as unsupported. This amount represents all Federal
reimbursements received by the State under that grant during our audit period. We
are also questioning the Federal share of unsupported payroll expenses charged to
the aquatic education grants, including $7,717 under Grant F-47-E-19; $34,559
under Grant F-47-E-20; and $32,762 under Grant F-47-E-21. Therefore, all
unsupported questioned costs related to payroll total $79,656.

Recommendations

We recommend that FWS:

    1. Resolve the $79,656 in unsupported questioned costs.

    2. Ensure the Department follows Federal regulations and Department
       policies when charging payroll expenses to the Program grants.

    3. Ensure the Department develops and implements policies and
       procedures requiring the Fiscal and Administrative Service to obtain
       and review supporting documentation for Program grant charges
       before requesting Federal reimbursement.


Department Response
Department officials stated that they will review the payroll expenses for
propriety by June 30, 2012, and will work with FWS to resolve the questioned
costs. The Department will also develop policies and procedures to implement the
other recommendations.

FWS Response
FWS regional officials concurred with the finding and recommendations and
stated that they will work with the Department to develop and implement a
corrective action plan.




                                                                                11
OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •		 Targeted completion dates for Recommendations A.3.2 and A.3.3.
   •		 Titles of officials responsible for implementing the actions taken or
	
                                                                            
	
       planned.
	
	
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

4.		 Unsupported and Ineligible Subgrant Costs — $10,952

The Department annually receives Program grants to educate the public on the
State’s aquatic resources. Using these funds, Watershed Services awarded more
than 20 subgrants to schools and environmental education centers in SFYs 2009
and 2010 to carry out aquatic-based projects. Watershed Services staff, however,
did not administer these subgrants in accordance with Federal regulations and
Department policies. Specifically, they:

   •		 Advanced recipients 75 percent of their subgrant awards and obtained
       Federal reimbursement for the advances.
   •		 Fully funded two subgrants without ever receiving required reports on the
       subgrantees’ accomplishments.
   •		 Obtained insufficient or no receipts for purchases made by eight
	
	
       subgrantees totaling $12,349 ($7,646 Federal share).
	
                                                            
	
   •		 Charged $5,543 ($3,306 Federal share) from five subgrants to Grants
       F-47-E-20 and F-47-E-21, even though these costs were incurred or
       obligated outside the grant periods.

Federal regulations and the Department’s policies and procedures outline a
number of requirements regarding subgrant agreements and payments. For
instance:

   •		 The CFR, in 43 CFR § 12.77(a), requires States to ensure that subgrantees
       are aware of requirements imposed upon them by Federal regulations and
       to ensure that a provision for compliance with 43 CFR § 12.82 (regarding
       retention and access requirements for records) is placed in every cost
       reimbursement subgrant.
   •		 According to 2 CFR § 225, Appendix A, subsection C.1.j, to be allowable
       under a Federal award, costs must be adequately documented.
   •		 In addition, 50 CFR § 80.15(c) states that costs incurred prior to the
       effective date of the grant are allowable only when specifically provided
       for in the grant, and 50 CFR § 80.16 notes that payments must be made for
       the Federal share of allowable costs after the State incurs those costs for
       Program purposes.


                                                                                 12
   •		 A FAS administrative procedure requires subgrant agreements to be
       reviewed by the Department’s Office of Attorney General and states that
       billings from subgrantees may not be paid until the Department receives
       “copies of invoices, time cards, and other documentation to support the
       amount being billed.”
   •		 Finally, Watershed Services’ subgrant agreements require recipients to
       submit a report on their accomplishments before receiving final payment.

These problems occurred because Department officials did not (1) follow their
own procedures to ensure subgrant agreements were reviewed for legal
sufficiency; (2) include a provision in subgrantee agreements requiring records,
such as receipts, to be maintained in accordance with 43 CFR § 12.82; (3) follow
Federal regulations and Department policies requiring payment only after
receiving documentation to support incurred costs; and (4) have policies and
procedures to ensure that costs were charged to the correct Program grant when
subgrants spanned two different grant periods.

As a result, we are questioning a Federal share of $7,646 in unsupported costs and
$3,306 in ineligible out-of-period costs, for a total of $10,952, as detailed in the
table below.

       Grant        Unsupported Costs        Ineligible Costs
                                                                     Totals
      Number         (Federal Share)         (Federal Share)
   F-47-E-20                $3,036                 $2,843             $5,879
   F-47-E-21                 4,610                    463              5,073
   Totals                   $7,646                 $3,306            $10,952

Recommendations

We recommend that FWS:

    1. Resolve the $7,646 in unsupported costs and $3,306 in ineligible out-
       of-period costs.

    2. Ensure the Department’s component units follow Federal regulations
       and Department policies to award, monitor, and administer subgrants.

    3. Require the Department to develop and implement policies and
       procedures to ensure that costs are charged to the correct Program
       grant when subgrantee agreements span two different grant periods.


Department Response
Department officials stated that Watershed Services has obtained additional
documentation to support a portion of the questioned costs. They plan to resolve

                                                                                 13
all the questioned costs with FWS by June 30, 2012. In addition, Department
officials agreed to implement Recommendations A.4.2 and A.4.3. They noted that
Watershed Services has added language to subgrant award letters and signatory
paperwork requiring subgrantees to submit all receipts and retain appropriate
records for at least 3 years. Furthermore, subgrants awarded by Watershed
Resources will no longer span two different Program grant periods.

FWS Response
FWS regional officials concurred with the finding and recommendations and
stated that they will work with the Department to develop and implement a
corrective action plan.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •		 Targeted completion dates for Recommendations A.4.2 and A.4.3.
   •		 Titles of officials responsible for implementing the actions taken or
       planned.
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

5.		 Unsupported Corporate Purchasing Card Transactions — $3,751

To carry out daily activities under the Program grants, Department employees
purchase a variety of supplies, services, and equipment items using corporate
purchasing cards (CPCs). The Department, however, could not provide signed
CPC statements to support four expenditures charged to the Program grants
because it did not fully enforce Statewide CPC requirements. One of these
transactions was also missing a receipt.

According to 2 CFR § 225, Appendix A, subsection C.1.j, to be allowable under a
Federal award, costs must be adequately documented. In addition, Section 12.04
of the “Corporate Purchasing Card Program Policy and Procedures,” issued by the
State Comptroller, requires the cardholder’s supervisor or business manager to
review all CPC transactions on a monthly basis and determine if they are
reasonable and necessary. The reviewer must also certify the accuracy of the
employee’s CPC activity by signing and dating the monthly cardholder statement.

As discussed in the Prior Audit Coverage section of this report, the lack of a
thorough supervisory review permitted a former Department employee to execute
$71,000 in potentially fraudulent CPC transactions. Similarly, due to inadequate
supervisory review and missing documentation, we are questioning $7,035
($3,751 Federal share) in unsupported CPC transactions, as shown in the table
below.



                                                                                14
                                          Federal        Federal Share of
            Grant       Unsupported
                                           Share          Unsupported
           Number          Costs
                                         Percentage           Costs
         F-53-D-17          $2,000          75%               $1,500
         F-57-R-10           2,500          44%                1,100
         F-57-R-11           1,935          44%                  851
         F-61-R-6              600          50%                  300
         Totals             $7,035                            $3,751


 Recommendations

 We recommend that FWS:

    1. Resolve the $3,751 in unsupported questioned costs.

    2. Ensure the Department follows the State’s “Corporate Purchasing
       Card Program Policy and Procedures.”


Department Response
Department officials stated that they will work with FWS to resolve the
questioned costs and take measures to adhere to the CPC policies and procedures.

FWS Response
FWS regional officials concurred with the finding and recommendations and
stated that they will work with the Department to develop and implement a
corrective action plan.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •		 The specific action(s) taken or planned to address the recommendations.
   •		 Targeted completion date.
   •		 Titles of officials responsible for implementing the actions taken or
       planned.
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

B. Inadequate Assent Legislation

The legislation establishing two of the State’s funds for hunting and fishing
license fees does not prohibit the diversion of those fees for purposes other than
the administration of fish and wildlife. Specifically, the Annotated Code of
Maryland, Natural Resources Article, Section 10-209 notes that hunting license
fees deposited in the State’s Wildlife Management and Protection Fund “may be
used for the scientific investigation, protection, propagation, and management of

                                                                                 15
wildlife;” it does not, however, prohibit the diversion of license fees for other
purposes. Similarly, Section 4-209 states that fishing license fees deposited in the
Fisheries Research and Development Fund “may be used” for fisheries-related
work; it likewise does not prohibit the diversion of license fees.

According to 50 CFR § 80.3, “A State may participate in the benefits of the Act(s)
only after it has passed legislation which assents to the provisions of the Acts and
has passed laws for the conservation of fish and wildlife including a prohibition
against the diversion of license fees paid by hunters and sport fishermen to
purposes other than administration of the fish and wildlife agency.”

Department officials were unaware that the State’s assent legislation did not
prohibit the diversion of license revenues from these two funds. Without adequate
assent legislation, however, the State poses a greater risk for diverting license
revenues and could be deemed ineligible to participate in the Program.

 Recommendation

 We recommend that FWS require the Department to work with the State
 legislature to pass legislation prohibiting the diversion of hunting and fishing
 license fees for purposes other than the administration of fish and wildlife.


Department Response
Department officials stated that they will request the State’s General Assembly to
introduce legislation during the 2012 session to prohibit the diversion of hunting
and fishing license fees for purposes other than the administration of fish and
wildlife.

FWS Response
FWS regional officials concurred with the finding and recommendation and stated
that they will work with the Department to develop and implement a corrective
action plan.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •		 Targeted completion date.
   •		 Titles of officials responsible for implementing the actions taken or
       planned.
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.




                                                                                    16
C. Potential Diversions of License Revenues

One of the Program’s major tenets is the requirement that States use hunting and
fishing license revenues solely to manage their fish and wildlife resources. As
previously discussed, the Acts and the CFR emphasize the importance of this
principle by requiring States to pass assent legislation prohibiting the diversion of
license revenues.

In 50 CFR § 80.4(a), license revenues are defined as any revenues the State
receives from the sale of licenses conveying the privilege to pursue or take
wildlife or fish. Such revenues include income from:

   •		 General or special licenses, permits, stamps, tags, access and recreation
       fees, or other charges imposed by the State to hunt or fish for sport or
       recreation.
   •		 The sale, lease, rental, or other granting of rights of real or personal
       property acquired or produced with license revenues.

Furthermore, 50 CFR § 80.4(b) and (c) note that a diversion of license revenues
occurs when any portion is used for any purpose other than the functions required
to manage the State’s fish and wildlife-oriented resources. Because 50 CFR §
80.4(d) gives the FWS Director the authority to declare a diversion, we refer to
“potential diversions” of license revenues in this report.

We noted five instances where the Department potentially diverted $1,122,501 in
license revenues because officials (1) allocated an inappropriate amount of license
revenues to the Department’s Office of the Secretary, (2) donated license
revenues for an unallowable purpose, (3) did not document how the Maryland
Park Service spent license revenues, (4) lost physical and administrative control
over firearms potentially purchased with license revenues, and (5) could not
determine if the State has ever disposed of real property purchased with license
revenues and used the resulting proceeds appropriately.

Each potential diversion brings into question whether fish and wildlife activities
appropriately benefitted from these funds and jeopardizes the State’s continued
participation in the Program.

1.		 Inequitable Allocations of License Revenues to the Department’s Office
     of the Secretary

The Department uses approximately 20 “special funds” to track a variety of
revenues that are restricted by State legislation, including hunting and fishing
license fees. Each year, the Department makes indirect cost payments to its Office
of the Secretary (the Office) using these revenues, since the Office’s divisions,
such as FAS, the Human Resource Service, and the Office of the Attorney
General, support the entire Department. In SFY 2009, however, two special funds


                                                                                   17
consisting of fishing license revenues paid an inequitable share of indirect costs to
the Office. Specifically, the Office received $691,212 from the Fisheries Research
and Development Fund and the Fisheries Management and Protection Fund that
should have been borne by other funding sources.

We calculated the amount of fishing license revenues allocable to the Office using
the indirect cost rate for the Department’s Fisheries Service, which was negotiated
with the U.S. Department of the Interior. We applied this rate to the applicable
direct base of salaries, wages, and fringe benefits paid by the two special funds, as
shown in the table below.

                           Salaries,   Indirect   Allowable   Allocated to    Difference
  Special Fund
                   SFY     Wages,        Cost      Indirect   Office of the   (Potential
     Name
                          and Fringe     Rate        Cost      Secretary      Diversion)
 Fisheries
 Research and
                   2009   $3,735,679     7.34%    $274,199     $749,400        $475,201
 Development
 Fund
 Fisheries
 Management and    2009   $1,593,851     7.34%    $116,989     $333,000        $216,011
 Protection Fund
 Total                                                                         $691,212


This issue arose because the Department allocated indirect costs to the Office
based on the proportionate amount of revenue deposited per year in each special
fund. This allocation method, however, does not reasonably distribute the Office’s
costs to the Department’s benefitting activities, since it does not consider
expenditures charged to the special funds. To illustrate, the Department could
choose not to spend the special fund revenue earned through a particular activity.
As a result, the Office would incur relatively limited costs to process payroll,
procure equipment and supplies, or issue legal opinions related to that activity.
The Department’s current methodology could therefore overstate the Office’s
corresponding costs and allocate an inequitable share of revenue from that special
fund.

 Recommendations

 We recommend that FWS:

    1. Resolve the potential diversion of fishing license revenues totaling
       $691,212.

    2. Ensure the Department uses its negotiated indirect cost rates or
       another reasonable methodology to equitably allocate indirect costs to
       the Office of the Secretary from its various revenue sources.




                                                                                      18
Department Response
Department officials stated that by December 31, 2012, they will review the
allocation of indirect costs from the two fisheries funds for propriety. They also
concurred that “there is some merit in developing an alternative approach in
allocating Office of the Secretary costs.” The officials argued, however, that
Federal indirect rates do not provide a better alternative because the Department’s
allocation to the Office is calculated on an “agency fund” basis (Wildlife
Management and Protection Fund, etc.), while the Federal indirect rates are
calculated on a unit basis (Wildlife and Heritage Service, Fisheries Service, etc.).

FWS Response
FWS regional officials concurred with the finding and recommendations and
stated that they will work with the Department to develop and implement a
corrective action plan.

OIG Comments
We used the Federal indirect cost rates to determine the potential diversion in this
finding for a number of reasons: (1) Department officials recognized the overall
premise that indirect costs should not be allocated based on revenue received, (2)
the Department developed the Federal indirect cost rates itself, (3) employees paid
with license revenues do not perform work appreciably different from employees
paid with Program grant funds, and (4) the Department could not provide a more
reasonable methodology for allocating indirect costs to its Office of the Secretary.

Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •		 The specific action(s) taken or planned to address the recommendations.
   •		 Targeted completion date for Recommendation C.1.2.
   •		 Titles of officials responsible for implementing the actions taken or
	
                                                                            
	
       planned.
	
	
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

2.		 Donations of License Revenues

The Department annually donated hunting license revenues to an organization that
pays for the processing of deer meat for individuals in need. The amount donated
in SFYs 2009 and 2010 totaled $196,000 and was not used to manage the State’s
fish and wildlife resources.

This issue occurred because State legislation required the donations. According to
the Annotated Code of Maryland, Natural Resources Article, Section 10-308(b),
“The Department shall use $1 from the sale of each resident regular and full
season nonresident hunting license to provide funding for the processing of deer
for donation to the needy.”

                                                                                 19
Recommendation

We recommend that FWS resolve the potential diversion of license revenues
totaling $196,000.


Department Response
Department officials stated that they will request the State’s General Assembly to
introduce legislation during the 2012 session to eliminate the Department’s
obligation to process deer meat for donations.

FWS Response
FWS regional officials concurred with the finding and recommendation and stated
that they will work with the Department to develop and implement a corrective
action plan.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •		 Targeted completion date.
   •		 Titles of officials responsible for implementing the actions taken or
       planned.
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

3.		 Transfers of Hunting Permit Revenues to the Maryland Park Service

The Department’s Wildlife and Heritage Service sells managed hunt permits,
which are required to hunt on a limited number of lands operated by the Maryland
Park Service (the Park Service). To support hunting programs on those areas, the
Department annually transferred $70,000 to the Park Service from the sale of
managed hunt permits, or a total of $140,000 in SFYs 2009 and 2010. The
Department, however, did not require the Park Service to document its use of
these revenues. Officials therefore could not demonstrate whether the funds were
spent solely to manage the State’s fish and wildlife resources.




                                                                                20
Recommendations

We recommend that FWS:

    1. Resolve the potential diversion of license revenues totaling $140,000.

    2. Ensure the Department adequately documents the Maryland Park
       Service’s use of license revenues to demonstrate that those funds are
       spent solely to manage the State’s fish and wildlife resources.


Department Response
Department officials stated that they will review the transfers of license revenues
to the Maryland Park Service for propriety by March 31, 2012. The Wildlife and
Heritage Service and the Maryland Park Service will also develop a
Memorandum of Understanding (MOU), which will detail allowable uses of
hunting permit fees beginning with the 2012-2013 hunting season.

FWS Response
FWS regional officials concurred with the finding and recommendations and
stated that they will work with the Department to develop and implement a
corrective action plan.

OIG Comments
An MOU detailing allowable uses of these funds is in itself not sufficient to
resolve this potential diversion. The Department must maintain auditable records,
such as timesheets, invoices, and receipts, to demonstrate that license revenues
from the sale of managed hunt permits are used solely to manage the State’s fish
and wildlife resources.

Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •		 The specific action(s) taken or planned to address the recommendations.
   •		 Targeted completion date for Recommendation C.3.2.
   •		 Titles of officials responsible for implementing the actions taken or
       planned.
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

4.		 Loss of Physical and Administrative Control over Firearms

Under the Program, items purchased with hunting and fishing license revenues
must continue to serve fish and wildlife purposes throughout their useful lives.
The Department’s Natural Resources Police, however, has lost physical and


                                                                                   21
administrative control over hundreds of hunter education firearms that were
potentially purchased with license revenues. Specifically:

   •		 The NRP issued 906 firearms to 90 citizens who volunteer to teach hunter
       education courses. None of these individuals are NRP employees or
       contractors, although they keep the State-owned firearms full-time. The
       NRP could not provide evidence that it had conducted background checks
       on all of these volunteers.
   •		 Of the 906 firearms, 761 (84 percent) were not recorded in the
       Department’s official Capital Equipment Inventory System (CEIS).
       Instead, an NRP contractor kept a list of weapons and the volunteers to
       whom they were assigned on a spreadsheet. He was the only individual
       who possessed these records when our audit began.
   •		 The NRP had no record of the physical location of the firearms; officials
       informed us that they were generally kept in volunteers’ private residences
       or at gun clubs.
   •		 The firearms were not clearly and consistently marked as State property,
       and NRP staff had never conducted a comprehensive physical inventory of
       them.
   •		 According to one NRP staff member, a volunteer admitted to loaning one
       of these firearms to an acquaintance, who allowed a minor to use it for
       personal purposes.

This problem arose due to several reasons. First, the NRP issued the firearms to
volunteer instructors to make them readily available for hunter education courses.
(We noted, however, that each instructor teaches an average of only three courses
annually.) Second, the Department did not have a procedure to ensure that all
firearms, particularly those acquired using corporate purchasing cards, were
recorded in CEIS. Third, NRP staff had never conducted a physical inventory of
these firearms but instead relied on the volunteers to inform them when firearms
were damaged or missing. Finally, the NRP’s equipment coordinator informed us
that she has not issued property identification numbers for hunter education
firearms “in years” and that CEIS only allows these numbers to be added when
equipment is initially inputted in the system.

Because the NRP lost physical and administrative control over these firearms, we
determined that the Department potentially diverted $95,289 in license revenues.
As shown in the table below, we calculated this amount in three steps because
neither CEIS nor the NRP’s unofficial inventory indicated the funding source of
all the firearms in question. More importantly, however, the NRP’s lack of control
over these firearms poses a public safety risk, since they are prone to theft,
unauthorized use, or even use for illegal activities.




                                                                                22
                    Hunter Education Firearms Issued to Volunteers
                                    Amount
                     Number
                                Potentially Paid
    Description          of                                      Comments
                                   by License
                     Firearms
                                    Revenue
 Firearms in CEIS 
         32        $2,881      CEIS indicated that special funds
 With a Funding 
                                 (most likely license revenues) paid for
 Source 
                                         these firearms.
 Firearms in CEIS 
        113       $11,742      Since CEIS indicated a value but no
 Without a 
                                      funding source for these firearms,
 Funding Source 
                                 license revenues could have paid up
                                                  to the full cost.
 Firearms Not in           761       $80,666      Neither the value nor the funding
 CEIS                                             source of these firearms was listed on
 But Listed on                                    the NRP’s unofficial spreadsheet. We
 NRP’s Unofficial                                 therefore determined the average
 Spreadsheet                                      value of all firearms in CEIS that
                                                  belonged to the hunter education
                                                  program. We multiplied that amount,
                                                  $106, by the number of firearms
                                                  missing from CEIS. License revenues
                                                  could have paid up to the full cost.
 Totals                   906       $95,289


Recommendations

We recommend that FWS:

    1. 	 Resolve the potential diversion of license revenues totaling $95,289.

    2. 	 Ensure the Department secures the hunter education program’s
         firearms to limit the potential for misuse or theft.

    3. 	 Require the Department to develop and implement policies and
         procedures to notify its equipment coordinators when equipment and
         sensitive items are procured through any means.


Department Response
Department officials stated that by June 30, 2012, they will review the practice of
issuing firearms to individuals not employed by the State, research the source of
funds used to purchase the firearms in question, and ensure all acquisitions of
firearms are accounted for in CEIS.

FWS Response
FWS regional officials concurred with the finding and recommendations and
stated that they will work with the Department to develop and implement a
corrective action plan.


                                                                                       23
OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •		 The specific action(s) taken or planned to address the recommendations.
   •		 Titles of officials responsible for implementing the actions taken or
	
                                                                            
	
       planned.
	
                
	
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

5.		 Disposal of Real Property Purchased with License Revenues

One of the ways States carry out the objectives of the Program is by acquiring real
property – primarily land – for public hunting and fishing. According to Program
requirements, any proceeds from the disposal of real property purchased with
hunting and fishing license revenues must be spent solely to manage the State’s
fish and wildlife resources.

Section II.02A of the “Inventory Control Manual,” issued by the State’s
Department of General Services, requires agencies to record the source of funds
used to purchase each State-owned building or parcel of land. The Department,
however, has not consistently maintained such records. Therefore, officials were
unable to determine if the State has ever disposed of real property purchased with
license revenues or whether it used the resulting proceeds strictly to manage its
fish and wildlife resources. This issue occurred because the Department did not
have policies and procedures to (1) maintain real property records that include the
source of funding and (2) restrict proceeds from the disposal of real property
purchased with license revenues.

We reported a similar condition in our prior audit report (No. R-GR-FWS-0025-
2005). We are therefore repeating the applicable recommendation from that report
(Recommendation D.2), which will be tracked under the resolution process for the
prior audit. We are also issuing two new recommendations.

Repeat Recommendation

We recommend that FWS require the Department to establish policies and
procedures for maintaining real property records that include the source of
funding.


Department Response
Department officials stated that due to recent improvements, CEIS can now
identify the source of funds for all newly-acquired property. While the officials
identified all lands purchased with Wildlife Restoration funds in response to the


                                                                                    24
prior Program audit, they have not yet determined which properties were acquired
with Sport Fish Restoration funds or license revenues.

FWS Response
FWS regional officials concurred with the finding and recommendation and stated
that they will work with the Department to develop and implement a corrective
action plan.

OIG Comments
The implementation of this recommendation will be tracked under the prior audit
report. Accordingly, FWS should send documentation regarding the
implementation of this recommendation to the U.S. Department of the Interior,
Office of the Assistant Secretary for Policy, Management, and Budget.

 New Recommendations

 We recommend that FWS:

    1. Resolve the potential diversion of license revenues related to the
       disposal of real property.

    2. Ensure the Department develops and implements policies and
       procedures to restrict proceeds from the disposal of real property
       purchased with license revenues to the administration of the State’s
       fish and wildlife resources.


Department Response
Department officials stated that beginning in 1976, the Department has
exclusively used State funds to acquire real property. They claimed that the
Department has not sold any real property in the past 10 years and has only rarely
done so prior to that time. Selling real property requires multiple layers of
approval and a title search to identify any legal restrictions attached to the deed.
In addition, officials stated that the funding source of real property could be found
in the minutes of the Board of Public Works’ meetings dating from the time the
property was acquired.

According to the officials, “Although historical records of specific fund sources
are generally lacking, by making certain reasonable assumptions about the time
and funding sources available to [the Department’s] predecessor agencies, we
believe we can accurately capture license purchased property.”

FWS Response
FWS regional officials concurred with the finding and recommendations and
stated that they will work with the Department to develop and implement a
corrective action plan.

                                                                                    25
OIG Comments
Department officials assert that due to the complexity of the disposal process,
they would have inevitably determined the funding source of any real property
proposed for disposal. As noted above, however, they also state that “historical
records of specific funding sources are generally lacking” and to resolve the
recommendations, they would need to make “assumptions” regarding which lands
were purchased with license revenues. Therefore, despite the officials’ response,
we have no assurance that the Department or its predecessor agencies have
consistently restricted the disposal of real property purchased with license
revenues.

Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •		 The specific action(s) taken or planned to address the recommendations.
   •		 Targeted completion date.
   •		 Titles of officials responsible for implementing the actions taken or
       planned.
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

D. Unreported Program Income

Under the Program, States may earn revenue, or program income, from grant-
supported activities but must report and use such funds in accordance with
Federal regulations. Although the Department claimed program income totaling
$45,491 under Grants W-62-D-20 and W-62-D-21 for the operation and
maintenance of its wildlife management areas (WMAs), we determined that it did
not report an additional $61,379. The Wildlife and Heritage Service (WHS)
generated the unreported income by leasing land for agricultural purposes and
exclusive trapping rights on WMAs. WHS personnel charged the time they spent
preparing and executing the leases to the Program grants. The table below details
the associated revenues.

                                     Grant Number
           Type of Lease                                           Totals
                                W 62 D 20    W 62 D 21
             Agricultural             $0       $57,035              $57,035
              Trapping             2,202         2,142                4,344
               Totals             $2,202      $59,177              $61,379


In 43 CFR § 12.65(b), program income is defined as gross income a grantee
receives that is “directly generated by a grant supported activity, or earned only as
a result of the grant agreement during the grant period.” In accordance with the
CFR, the agreements for Grants W-62-D-20 and W-62-D-21 stipulate that any



                                                                                  26
program income should be added to grant funds and used for grant-related
purposes.

Although the Department had sufficient policies and procedures related to
program income, this issue occurred due to miscommunication between a WHS
regional manager and his staff. According to the manager, he had informed his
staff to charge a State funding source for all time spent preparing and executing
agricultural and trapping leases. Two of his staff members, however, informed us
that they had charged Grants W-62-D-20 and W-62-D-21 for such work. One
additional employee, who worked on trapping leases, was unable to recall if he
charged his time to the Program grants or a State funding source. At any rate,
because the $61,379 was not tracked and reported as program income, WHS
officials were unable to ascertain whether those funds were properly spent to
carry out the objectives of Grants W-62-D-20 and W-62-D-21.

Recommendations

We recommend that FWS:

    1. Resolve the $61,379 in unreported program income.

    2. Ensure the Department clearly communicates its policies and
       procedures for tracking and reporting program income to staff charging
       time to the Program grants.


Department Response
Department officials stated that by March 31, 2012, they will resolve the
unreported program income. They also plan to review the Department’s existing
policy on program income, make any necessary revisions, and ensure staff
members adhere to existing procedures.

FWS Response
FWS regional officials concurred with the finding and recommendations and
stated that they will work with the Department to develop and implement a
corrective action plan.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •		 The specific action(s) taken or planned to address the recommendations.
   •		 Targeted completion date for Recommendation D.2.
   •		 Titles of officials responsible for implementing the actions taken or
       planned.


                                                                                 27
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

E. Noncompliance with Indirect Cost Requirements

The Department allocated administrative costs for State- and Department-
provided services among its Federal grants. It did not, however, adhere to a
number of requirements regulating the calculation and reporting of these costs.

According to 50 CFR § 80.15(e), indirect costs for State central services outside
the fish and wildlife agency cannot exceed 3 percent of the State’s annual
apportionment of Program funds. We found, however, that on Grants W-65-S-20
and W-65-S-21 for hunter education and Grants F-47-E-19, F-47-E-20, and F-47-
E-21 for aquatic resource education, the Department did not obtain Federally-
approved indirect cost rates that ensured compliance with this requirement.
(Following the period covered by this audit, the Department did obtain
appropriate rates for its hunter education grants but still had not done so for its
aquatic resource education grants.)

The Department also calculated indirect costs on its aquatic resource education
grants incorrectly. It applied the indirect cost rate for the Fisheries Service to the
salaries, wages, and fringe benefits of Watershed Service employees, who
actually performed the work under those grants. This practice is contrary to
2 CFR § 225, Appendix C, subsections A.2 and A.3, which state that “indirect
costs include the indirect costs originating in each department or agency of the
governmental unit carrying out Federal awards…. A separate indirect cost rate is
usually necessary for each department or agency of the governmental unit
claiming indirect costs.”

Finally, the Department submitted Federal Financial Reports with incorrect
indirect cost totals. For instance, the Department did not report any indirect costs
on its aquatic resource education grants, even though it regularly drew down
Federal funds for that purpose. On Grant F-63-R-1 for marine and estuarine
finfish ecological and habitat investigations, the Department reported Federal
charges for indirect costs totaling $32,195, even though the actual amount
charged was $16,098. The requirement in 43 CFR § 12.81(b)(4) to submit
financial reports to the Federal grantor agency inherently stipulates that all figures
be reported accurately.

Several causes gave rise to these issues. Specifically,

   •		 The Department had not fully implemented its policies and procedures
       regarding the limitation on payments for Statewide central services.
   •		 A Fisheries Service official informed FAS staff, who prepare the Federal
       Financial Reports that no indirect costs were incurred under the aquatic
       resource education grants. The official remarked that he viewed

                                                                                     28
       Watershed Services as a contractor and therefore did not believe that its
       indirect costs needed to be reported separately.
   •		 For Grant F-53-D-17, a grant specialist did not apply the Federal share
       percentage to total indirect costs to accurately report FWS’ portion of
       these expenses.
   •		 FAS did not have formal policies and procedures in place to ensure that
       amounts claimed on Federal Financial Reports were independently
       verified before their submission to FWS.

Due to noncompliance with the 3 percent limitation on Statewide indirect costs,
the Department might have received excess reimbursement under Grants F-47-E-
19, F-47-E-20, F-47-E-21, W-65-S-20, and W-65-S-21. Furthermore, incorrect
reporting of costs on Federal Financial Reports hinders FWS’ efforts to ensure
compliance with Program requirements and accountability for Federal funds.

Recommendations

We recommend that FWS:

    1. Ensure the Department fully implements its policies and procedures
       limiting reimbursement for State-provided central services under the
       Program grants to 3 percent of the State’s annual apportionment.

    2. Require the Department to claim indirect costs on its Program grants
       by applying the indirect cost rate of the unit performing the grant work
       to the same unit’s direct cost base.

    3. Ensure the Department develops and implements policies and
       procedures requiring amounts claimed on Federal Financial Reports to
       be independently verified before their submission to FWS.


Department Response
Department officials stated that they will implement the recommendations by
June 30, 2012.

FWS Response
FWS regional officials concurred with the finding and recommendations and
stated that they will work with the Department to develop and implement a
corrective action plan.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:



                                                                                   29
   •		 The specific action(s) taken or planned to address the recommendations.
   •		 Titles of officials responsible for implementing the actions taken or
	
	
       planned.
	
	
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

F.		 Inadequately Tracked and Missing Equipment

Federal regulations require States to have adequate controls to account for
equipment purchased under the Program. To test the Department’s controls in this
area, we selected 54 pieces of equipment from CEIS. These items were purchased
with Federal and special funds (i.e., license revenues) and were valued at
$508,032. We determined that:

   •		 Department staff could not locate three items, costing $6,714, including an
       all-terrain vehicle, a laptop computer, and a digital camera.
   •		 Property tags and property tag numbers were not affixed to, etched on, or
       painted on 23 pieces of equipment, costing $251,211. This amount
       represents 49 percent of the value of all equipment in our sample. Items
       missing property tags and numbers included tractors, boats, firearms,
       laptop computers, and a digital camera.

Additionally, we performed a “reverse test” of 24 pieces of equipment; that is, we
viewed these items during site visits and then attempted to locate them in CEIS.
Seven items were not recorded in CEIS, including four boats, a laptop computer, a
water pump, and a podium with a removable public address system. Furthermore,
11 items were missing property tags.

We noted several other indications of inadequate equipment management during
the course of our audit. Specifically:

   •		 As of April 2011, CEIS indicated that the NRP maintained 52 pieces of
       equipment at the Annapolis City Dock Office that had been purchased
       with special funds, Federal funds, or an unspecified funding source. These
       items were valued at $1,010,120. According to Department officials,
       however, all NRP staff had vacated this office by February 2010.
   •		 As of April 2011, CEIS indicated that the NRP maintained 14 pieces of
       hunter education equipment at the Annapolis Annex Office that had been
       purchased with special funds, Federal funds, or an unspecified funding
       source. These items were valued at $49,629. According to Department
       officials, however, all NRP staff working on safety education projects had
       vacated this office by September 2007.
   •		 As discussed in detail in Finding C.4 of this report, the NRP provided 906
       firearms, valued at approximately $95,289, to volunteer hunter education
       instructors. These weapons were not all recorded in CEIS or stored at the


                                                                                   30
       locations noted in CEIS. The NRP therefore did not exercise effective
       control over them.

According to 43 CFR § 12.72(b), States are required to manage equipment
acquired under the Program grants in accordance with their own laws and
procedures. The State’s “Inventory Control Manual” requires the following:

   •		 A complete physical inventory of capital items shall be taken at least once
       every three years (Section II.03 B.1.b). Such equipment has a probable
       useful life in excess of one year (Section I.04) and a cost of $500 or more
       (Section II.03).
   •		 A complete physical inventory of sensitive items shall be taken at least
       once each year (Section II.03 B.1.a). Such items include all computer
       equipment and hand-held electronic devices, portable tools, cameras, and
       firearms (Section I.04).
   •		 When the physical inventory is taken, inventory records shall be checked
       against the items inventoried to assure that records exist for each item and
       that records for missing items are investigated, reported, and removed
       from the inventory system (Section II.03 C.1).
   •		 Capital equipment items shall be marked with a property identification
       number and the words “Property of the State of Maryland.” The marking
       shall be conspicuously located on the top or side of items so as to be
       readily seen (Section III.03 A).

This issue arose due to several reasons. Specifically:

   •		 The Department did not conduct the required annual inventory of sensitive
       items in SFY 2010 or 2011 and therefore did not determine if any items
       were missing and take appropriate follow-up action.
   •		 The Department did not enforce policy to ensure that all equipment was
       marked as property of the State and had identification numbers affixed in a
       conspicuous location.
   •		 Department staff who managed the inventory process expressed
       uncertainty about their specific responsibilities, and the Department did
       not have adequate policies and procedures to clarify this issue.

As a result, the Department has increased the risk that equipment purchased with
Federal funds or license revenues could be lost, misplaced, or used for
unauthorized purposes.

We reported a similar condition in our prior audit report (No. R-GR-FWS-0025-
2005). We are therefore repeating the applicable recommendations from that
report (Recommendations C.1 and C.2), which will be tracked under the
resolution process for the prior audit. We are also issuing two new
recommendations.


                                                                                 31
 Repeat Recommendations

 We recommend that FWS:

    1. Ensure the Department accurately updates the data in the Capital
       Equipment Inventory System to reflect the correct status and location
       of items.

    2. Ensure the Department assigns property numbers to all items and tag
       all untagged items as required by the State’s guidelines.


Department Response
Department officials stated that they will ensure CEIS correctly identifies the
location of its capital equipment and will affix a unique property identifier to each
piece of equipment.

FWS Response
FWS regional officials concurred with the finding and recommendations and
stated that they will work with the Department to develop and implement a
corrective action plan.

OIG Comments
The implementation of these recommendations will be tracked under the prior
audit report. Accordingly, FWS should send documentation regarding the
implementation of these recommendations to the U.S. Department of the Interior,
Office of the Assistant Secretary for Policy, Management, and Budget.

 New Recommendations

 We recommend that FWS:

    1. Ensure the Department follows the State’s policies and procedures to
       conduct an inventory of all capital equipment once every three years
       and of all sensitive items once each year.

    2. Require the Department to develop and implement policies and
       procedures that (1) clarify the roles and responsibilities of staff charged
       with equipment management and inventory and (2) specifically address
       responsibilities for updating the location of equipment in the Capital
       Equipment Inventory System.




                                                                                  32
Department Response
Department officials stated that they are developing internal policies and
procedures to ensure physical inventories are completed in accordance with the
Department of General Services’ requirements.

FWS Response
FWS regional officials concurred with the finding and recommendations and
stated that they will work with the Department to develop and implement a
corrective action plan.

OIG Comments
Based on the FWS response, additional information is needed in the corrective
action plan, including:

   •		 The specific action(s) taken or planned to address the recommendations.
   •		 Targeted completion date.
   •		 Titles of officials responsible for implementing the actions taken or
       planned.
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

G. Inaccurate and Inconsistent Payroll Calculations

The Department’s Federal Timecard System, which is separate from but
interfaces with the State’s payroll system, calculates payroll charges related to the
Program grants. We noted several instances, however, where the Federal
Timecard System did not accurately or consistently perform these calculations.

For example, we found exceptions with payroll calculations for 7 of 15
Department employees in our sample for SFY 2010. In some instances, the
Department paid employees for working 80 hours over two weeks even though
they reported fewer hours on their timecards. In other cases, the Federal Timecard
System allocated fringe benefits to the Program grants based on a 72- or 74-hour
pay period, even though the employees worked 80 hours. The inaccurate and
inconsistent calculations appeared to occur when furlough days were involved.

The Federal Timecard System also allocates leave expenses to the Program
grants. It bases these calculations on the percentage of time each employee
directly charged a Program activity during the previous fiscal quarter. In one case,
however, we found that the Department charged a Program grant for 50 percent of
an employees’ leave, but the grant should have borne only 43 percent. In another
instance, the Department charged 11 percent of an employee’s leave to a grant but
should have charged only 8 percent. Because the system calculates and applies
hundreds of these percentages each quarter, total overcharges to the Program
grants could be significant.



                                                                                  33
According to 43 CFR §12.60(a)(2), fiscal control and accounting procedures of
the State must be sufficient to permit the tracing of funds to a level of
expenditures adequate to establish that they have not been used in violation of the
restrictions and prohibitions of applicable statutes. Furthermore, 2 CFR 225,
Appendix A, subsection C.1.e, states that to be allowable under Federal awards,
costs must be consistent with policies, regulations, and procedures that apply
uniformly to Federal awards and other activities of the governmental unit.

Department officials were unaware of these inaccuracies and inconsistencies; we
therefore concluded that the Federal Timecard System has not been correctly
programmed and appropriately tested to ensure charges to the Program grants are
accurate.

 Recommendation

 We recommend that FWS require the Department to (1) test the Federal
 Timecard System by verifying payroll charges in pay periods that include
 furlough days and the percentages used to allocate costs for leave, (2) provide
 FWS with documentation of such tests, and (3) make necessary changes to
 ensure the accuracy and consistency of payroll calculations.


Department Response
Department officials stated that they are currently converting the Department’s
payroll time reporting system to an electronic records-keeping system. The
Department intends to incorporate and convert the Federal time-keeping
requirements into its new payroll module. The officials agreed to periodically test
the Federal Timecard System when furloughs are reflected in payroll calculations
but noted that no furloughs are scheduled for SFY 2012.

FWS Response
FWS regional officials concurred with the finding and recommendation and stated
that they will work with the Department to develop and implement a corrective
action plan.

OIG Comments
The Department should conduct all tests outlined in the recommendation as soon
as practicable because (1) the State could require furloughs in future SFYs even
though none are scheduled for SFY 2012 and (2) the inaccuracies in leave
allocations described in this finding did not appear to be linked to furlough days.
Therefore, the Department could be overcharging the Program grants for
employees’ leave expenses each time it requests reimbursement from FWS.

Based on the FWS response, additional information is needed in the corrective
action plan, including:


                                                                                  34
   •		 The specific action(s) taken or planned to address the recommendation.
   •		 Targeted completion date.
   •		 Titles of officials responsible for implementing the actions taken or
	
                                                                            
	
       planned.
	
	
   •		 Verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

H. Unreconciled Real Property Records

The Department and FWS each maintain records on land purchased with Program
grant funds; however, these two sets of records contained a number of differences.
FWS’ records listed 50,468 acres that cost about $1.03 million, whereas the
Department’s land inventory identified 46,446 acres costing about $1.23 million.
Furthermore, FWS’ records indicated that the State received five Sport Fish
Restoration grants to acquire 257 acres of land, but the Department’s inventory
attributed no real property to the Sport Fish Restoration Program.

According to 50 CFR § 80.18(c) and the FWS Manual (522 FW 1.15), each State
is required to maintain accountability and control of Program assets to assure that
they are used for the purpose for which acquired throughout their useful life. The
FWS Director reiterated land management requirements to Program participants
in a March 29, 2007 letter. This letter requested each State to maintain a real
property management system that includes a comprehensive inventory of lands
and to ensure that its inventory is accurate and complete.

Even though a Department official received a copy of FWS’ land records in 2007,
he did not distribute them to the appropriate staff to begin the reconciliation
process. As a result, the Department’s land inventory is not adequate to ensure
that lands acquired with grant funds are used only for their originally intended
purposes.

We reported a similar condition in our prior audit report (No. R-GR-FWS-0025-
2005). We are therefore repeating the applicable recommendation from that report
(Recommendation D.1), which will be tracked under the resolution process for the
prior audit.

Repeat Recommendation

We recommend that FWS require the Department to establish complete and
accurate records for real property acquired with Program funds and license
revenues, ensuring reconciliation between the Department and FWS land
records.




                                                                                 35
Department Response
Department officials noted that beginning in 1976, the Department has
exclusively used State funds to acquire real property, and that the new CEIS
allows the Department to identify the source of funding for all real property
acquisitions. They stated that any reconciliation with FWS’ land records would
therefore involve only acquisitions prior to 1976.

FWS Response
FWS regional officials concurred with the finding and recommendation and stated
that they will work with the Department to develop and implement a corrective
action plan.

OIG Comments
The implementation of this recommendation will be tracked under the prior audit
report. Accordingly, FWS should send documentation regarding the
implementation of this recommendation to the U.S. Department of the Interior,
Office of the Assistant Secretary for Policy, Management, and Budget.




                                                                                 36
    Appendix I
                           State of Maryland 

                   Department of Natural Resources 

                Financial Summary of Review Coverage 

                  July 1, 2008, Through June 30, 2010 

I
                                                Questioned Costs
       Grant     Grant        Claimed            (Federal Share)
                                                          --~---
      Number    Amount         Costs
                                            Unsupported    Ineligible
    F-45-R-21      $74,907        $92,286




                                                                        37
                       State of Maryland


               Department of Natural Resources


            Financial Summary of Review Coverage


              July 1, 2008, Through June 30, 2010 


                                              Questioned Costs
   Grant      Grant        Claimed             (Federal Share)
  Number     Amount         Costs
                                          Unsupported    Ineligible
W-63-C-20         29,386         37,557
W-63-C-21        $33,400        $33,099
W-64-T-20        254,000        344,641
W-64-T-21        266,670        355,745
W-65-S-20        540,000        679,128       $87,436
W-65-S-21        705,000        804,762       126,719
TOTALS      $30,178,284    $25,449,785      $937,800       $3,306




                                                                      38
Appendix 2
                   State of Maryland


             Department of Natural Resources


                      Sites Visited



                       Headquarters


                        Annapolis

                      Service Centers
                          Bel Air
                      Prince Frederick

                        Field Office
                         Wye Mills

                       Work Center
                        Patuxent

                Wildlife Management Areas
                         Cedar Point
	
	
                         Fishing Bay
	
	
                           Idylwild
	
                                   
	
                          LeCompte
	
	
                          Millington
	
                                     
	
                        Myrtle Grove
	
	
                        Old Bohemia
	
	

                        Hatcheries
                        Cedarville
                       Unicorn Lake

                     Boating Facilities
                        Elk River
	
	
                         Lapidum
	
	
                       Wye Landing
	
	

             Natural Resources Police Offices
                Safety Education Division
                Western Region Echo Lake

                        Other Sites
                    Chapman State Park
	
	
               Cooperative Oxford Laboratory
	
	
               Doncaster Demonstration Forest
	
	
      Indian Creek Natural Resources Management Area
	
	

                                                           39
Appendix 3
                             State of Maryland


                     Department of Natural Resources


              Status of Audit Findings and Recommendations



  Recommendations                    Status               Action Required

A.1.1, A.1.2, A.2.1, A.2.2,   FWS management           Based on the FWS
A.2.3, A.3.1, A.3.2, A.3.3,   concurs with the         response, additional
A.4.1, A.4.2, A.4.3, A.5.1,   recommendations, but     information is needed in
A.5.2, B, C.1.1, C.1.2,       additional information   the corrective action
C.2, C.3.1, C.3.2, C.4.1,     is needed.               plan, as listed in the
C.4.2, C.4.3, C.5.1, C.5.2,                            Findings and
D.1, D.2, E.1, E.2, E.3,                               Recommendations
F.1, F.2, G                                            section under OIG
                                                       Comments. We will refer
                                                       the recommendations not
                                                       resolved and/or
                                                       implemented at the end
                                                       of 90 days (after
                                                       February 28, 2012) to the
                                                       Assistant Secretary for
                                                       Policy, Management and
                                                       Budget (PMB) for
                                                       resolution and/or tracking
                                                       of implementation.


Repeat                        Repeat                   Provide documentation
Recommendations C.5,          recommendations          regarding the
F (2 recommendations),        from our prior report    implementation of these
and H                         (No. R-GR-FWS-           recommendations to
                              0025-2005,               PMB.
                              Recommendations
                              D.2, C.1, C.2, and
                              D.1). PMB considers
                              these
                              recommendations
                              resolved but not
                              implemented.




                                                                                 40
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
